XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-6003
Facsimile: (916) 324-8835
E-Mail: Aimee.Feinberg@doj.ca.gov

March 24, 2020
Via Electronic Filing System
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Institute for Free Speech v. Becerra, No. 19-793

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on December 18,
2019. Respondent waived the right to file a response to the petition on January 14,
2020. On January 30, 2020, the Court requested a response to the petition. On
February 25, 2020, the Court granted respondent’s request for a 30-day extension of
time. The response is currently due on April 1, 2020.
Pursuant to Rule 30.4, respondent respectfully requests that the time for
filing the response be extended by an additional thirty days, up to and including
May 1, 2020. We have made substantial progress in drafting the response, but
additional time is needed for revisions, internal review, and finalization of the brief.
Those tasks have been complicated by challenges arising from the current public
health crisis, and an extension of time would better enable preparation of a
response that respondent believes would be most helpful to the Court. Petitioner
consents to this request.
Respectfully submitted,
/s Aimee Feinberg
AIMEE FEINBERG
Deputy Solicitor General
For

XAVIER BECERRA
Attorney General

March 24, 2020
Page 2
cc:

Allen J. Dickerson
Counsel for Institute for Free Speech
Via electronic mail only

